<html>
<title> - WEAK STATES IN AFRICA: U.S. POLICY IN ANGOLA</title>
<body><pre>[Senate Hearing 107-800]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-800
 
              WEAK STATES IN AFRICA: U.S. POLICY IN ANGOLA
=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 16, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate







                           U.S. GOVERNMENT PRINTING OFFICE
83-470                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman
CHRISTOPHER J. DODD, Connecticut     BILL FRIST, Tennessee
BARBARA BOXER, California            SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         GORDON H. SMITH, Oregon
    Virginia

                                  (ii)

  



                            C O N T E N T S

                              ----------                              
                                                                   Page

Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................     2
Kansteiner, Hon. Walter H., Assistant Secretary of State for 
  African Affairs, Department of State, Washington, DC...........     3
    Prepared statement...........................................     5
    Additional questions submitted for the record................    33
Global Witness, prepared statement submitted for the record......    14
Kramer, David, attorney, Baird Holm, Omaha, NE...................    23
    Press release of David Kramer on Angola Political Environment    27
Rostrup, Dr. Morten, president, Medecins Sans Frontieres/Doctors 
  Without Borders, Brussels, Belgium.............................    16
    Prepared statement...........................................    19

                                 (iii)



              WEAK STATES IN AFRICA: U.S. POLICY IN ANGOLA

                              ----------                              


                      WEDNESDAY, OCTOBER 16, 2002

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Russell D. 
Feingold (chairman of the subcommittee), presiding.
    Present: Senator Feingold.
    Senator Feingold. I call this hearing to order. Good 
morning.
    Today, the Subcommittee on African Affairs will focus on 
the case of Angola. This hearing marks the last in a series of 
hearings focusing on weak states of Africa and looking at our 
policy in those states with fresh eyes in the wake of the 
horrific attacks of September 11, 2001.
    My purpose in convening this series has been to try to draw 
attention to some of the manifestations of states' weaknesses 
in various parts of Africa, both in terms of humanitarian and 
economic collapse and in terms of such phenomena as piracy, 
illicit air transport networks, and trafficking in arms, 
gemstones, and people. I wanted to call attention to these 
issues and to explore long-term policy options for changing the 
context in these states and addressing the relationship between 
criminal activity, corruption, and humanitarian crisis to help 
make these states less appealing to criminal opportunists.
    Earlier this year, the subcommittee took up the cases of 
Somalia, the Democratic Republic of the Congo, and Liberia. 
Today, as we turn our attention to Angola, we consider a state 
that, unlike the DRC or Somalia, does not have trouble 
garnering attention at high levels in the United States. 
Angola's impressive oil resources and the significant presence 
of the United States private sector in the country pretty much 
ensure that Angola is not in danger of falling off the policy 
map. In addition, the end of Angola's long and costly civil war 
presents a critically important opportunity for meaningful 
change and progress in improving the lives of the Angolan 
people and the capacity of the Angolan state.
    In fact, I would say it seems that Angola's weakness is 
qualitatively different from that of other states in this 
series. The Angolan Government functions well enough to host 
the international private sector and functions well enough to 
have emerged the victor in the civil war. And yet malnutrition 
and infant mortality rates in Angola are shocking, and many of 
the Angola people have no access to basic services. News from 
Angola in recent years has often featured prominent examples of 
corruption and of sanctions busting activities, calling into 
question the state's regulatory capacity. The state is weak, 
but in its own distinct way.
    Confronted by these contradictory characteristics, it is 
not at all clear how U.S. policy will proceed. How will the 
United States continue to protect U.S. business interests while 
simultaneously pushing the Angolan Government to clean up the 
rampant corruption that has inspired an international campaign 
to improve transparency throughout the developing world known 
as ``Publish What You Pay''? How can the United States work 
with other members of the international community to take 
advantage of the peace to improve the conditions of the Angolan 
people while still impressing upon the Angolan Government that 
it has responsibilities in these sectors, as well?
    I remember very well visiting a camp in Angola for the 
internally displaced, in 1994, on my first to Africa. Then I 
visited again in 1999, and I saw displaced people who were even 
worse off. Both visits were powerful, but it was the 
realization that this degree of hardship and suffering was not 
really temporary in any meaningful sense that made the most 
powerful impression of all. I cannot imagine how an outcome 
that could possibly be in the United States' interests could 
emerge from that kind of misery.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I call this hearing to order. Today, the Subcommittee on African 
Affairs will focus on the case of Angola. This hearing marks the last 
in a series of hearings focusing on weak states in Africa, and looking 
at our policy in those states with fresh eyes in the wake of the 
horrific attacks of September 11, 2001. My purpose in convening the 
series has been to draw attention to some of the manifestations of 
states' weakness in various parts of Africa--both in terms of 
humanitarian and economic collapse and in terms of such phenomenon as 
piracy, illicit air transport networks, and trafficking in arms, 
gemstones, and people. I wanted to call attention to these issues, and 
to explore long-term policy options for changing the context in these 
states--and addressing the relationship between criminal activity, 
corruption, and humanitarian crisis--to help make these states less 
appealing to criminal opportunists.
    Earlier this year, the Subcommittee took up the cases of Somalia, 
the Democratic Republic of the Congo, and Liberia. Today, as we turn 
our attention to Angola, we consider a state that, unlike the DRC or 
Somalia, does not have trouble garnering attention at high levels in 
the United States. Angola's impressive oil resources, and the 
significant presence of the U.S. private sector in the country, ensure 
that Angola is not in danger of falling off of the policy map. In 
addition, the end of Angola's long and costly civil war presents a 
critically important opportunity for meaningful change and progress in 
improving the lives of the Angolan people and the capacity of the 
Angolan state.
    In fact, it seems that Angola's weakness is qualitatively different 
from that of the other states in the series. The Angolan government 
functions well enough to host the international private sector, and 
functions well enough to have emerged the victor in the civil war. And 
yet malnutrition and infant mortality rates in Angola are shocking, and 
many of the Angolan people have no access to basic services. News from 
Angola in recent years has often featured prominent examples of 
corruption and of sanctions-busting activities, calling into question 
the state's regulatory capacity. The state is weak, but in its own 
distinct way.
    Confronted by these contradictory characteristics, it is not at all 
clear how U.S. policy will proceed. How will the United States continue 
to protect U.S. business interests while simultaneously pushing the 
Angolan government to clean up the rampant corruption that has inspired 
an international campaign to improve transparency throughout the 
developing world, known as ``Publish What You Pay''? How can the U.S. 
work with other members of the international community to take 
advantage of the peace to improve the conditions of the Angolan people, 
while still impressing upon the Angolan government that it has 
responsibilities in these sectors as well?
    I remember visiting a camp for the internally displaced in 1994 on 
my first trip to Africa. Then I visited again in 1999, and saw 
displaced people who were even worse off. Both visits were powerful, 
but it was the realization that this degree of hardship and suffering 
was not really temporary in any meaningful sense that made the most 
powerful impression of all. I cannot imagine how an outcome that could 
possibly be in the United States' interests could emerge from that kind 
of misery.

    Senator Feingold. I know that Senator Frist is certainly 
going to attempt to make it here, as the ranking member of the 
subcommittee, and, as I always want to indicate on the record, 
he is such a committed advocate for Africa, and, if he is able 
to make it, we'll certainly turn to him for any remarks he 
wants to deliver.
    But I do look forward to exploring these issues with our 
witnesses today. The Assistant Secretary of State for African 
Affairs, Walter Kansteiner, is with us. He has made it a 
tremendous priority of his to be available to this subcommittee 
over the past year, and I appreciate all of his efforts. 
Welcome back, Secretary, and please proceed with your 
testimony.

STATEMENT OF HON. WALTER H. KANSTEINER, ASSISTANT SECRETARY OF 
 STATE FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Kansteiner. Thank you, Mr. Chairman, very much, and 
it's a privilege to be back up in front of your subcommittee.
    Your assessment on Angola is exactly the way we see it. 
This is a different category than some of the other failed 
states that we have looked at, although I would say it probably 
has been in that failed state category, or close to it, during 
its war years. It is now emerging as a potential leader for the 
region, and that is very exciting.
    The international community has a historic opportunity to 
assist Angola in following the right path after more than two 
decades of that civil war. Secretary Powell witnessed firsthand 
the commitment of the Angolans in securing that peace and 
achieving national reconciliation during his visit to Angola 
last month. We believe that we should seize this opportunity to 
transform Angola from a war-torn country to one that is stable 
and has an economic future for all its people.
    Our efforts in Angola are aimed at addressing humanitarian 
needs, improving good governance, and building the private 
sector, and help democracy flourish in a postwar environment.
    Since April of this year, more than 84,000 UNITA soldiers 
have reported with their families to 35 quartering areas. That 
is probably double what we had expected. Nearly 5,000 of these 
soldiers have been selected for integration into the Angolan 
Armed Forces, the FAA, or National Police. The remainder have 
now been decommissioned. The demobilization process has gone 
relatively smoothly, and effective reintegration over the long 
term now must include the assistance of local Angolan NGOs and 
us, the international community.
    Angola, in concert with this international community, must 
now find ways to consolidate this peace, achieve genuine 
democracy, protect the rights of its citizens, and better the 
lives of all of its people. Part of that effort will be through 
the Joint Commission; and the United States, as a member of the 
troika, will play an active role in ensuring that the Joint 
Commission lives up to its Security Council mandate, again, a 
commitment that Secretary Powell highlighted in his visit.
    As one of the troika members, we continue to exert 
diplomatic pressure on the United Nations, on UNITA, on the 
MPLA, stressing the need for the Joint Commission's work to 
develop a comprehensive, inclusive political framework for the 
country. We continue to train civil society actors so as to 
strengthen their ability to influence Angolan Government policy 
and to represent the needs of their constituents. We will also 
assist Angolans to successfully make the painful transition 
from a closed, one-party system to, hopefully, a truly 
pluralistic, open party democracy.
    Strengthening the protection of human rights is also 
critically important to establishing long-term peace. During 
the civil war, as you know, Senator, grave human rights 
violations by the police, by the FAA, by UNITA occurred, and 
occurred far too frequently. With the advent of peace, it is 
imperative for the international community to work with the 
police, to work with the military and with ordinary Angolans to 
improve the understanding of international human rights norms.
    Through our Democracy and Human Rights Fund, the United 
States supports human rights education and training programs 
for ordinary Angolans and supports indigenous NGOs in their 
efforts to educate Angolans on human rights. For instance, we 
have a very interesting legal assistance program providing 
legal and attorneys' help in court settings. The judicial 
system is not at all ideal, so we want to not only increase the 
capacity for the judicial system, but we also want to provide 
legal guidance for those people that, in fact, are charged.
    We also have an interesting new program with a Luanda NGO 
with prisons in trying to improve prison conditions, just some 
of the NGO-type work that we are trying to do in this thing 
called ``capacity building'' to make the human rights community 
that much stronger in the country.
    While the Angolan civil war is now over, it does leave 
numerous humanitarian challenges, as well as human rights 
challenges. We have some 4.3 million Angolans that are 
internally displaced as a result of the years of fighting; 1.9 
million receive ongoing humanitarian assistance. Compounding 
these concerns are the 80,000 former UNITA combatants and the 
300,000 UNITA family members that still remain in those 35 
quartering areas.
    The United States has been supporting the World Food 
Program [WFP] feeding efforts in quartering areas throughout 
the country, and we will continue to provide food, commodities, 
and food donations through the USAID Office of Food for Peace. 
We had a number of airlifts, actually, three airlifts and two 
sea lifts, of emergency food for those quartering areas in the 
last few months, and those included everything from health kits 
to blankets to shelters to tents. And most of those quartering 
areas still need assistance, and we are trying to encourage the 
Angolan Government to provide that assistance.
    When it is necessary, the international community is 
willing to step in, but, again, it is the Angolan Government's 
first responsibility. That's where it lies first. We're willing 
to help. We want to make sure that they are doing it as 
effectively as possible, and we will continue to keep a very 
close eye on that.
    Resettlement and reintegration of demobilized UNITA 
combatants and family members is also important: internally 
displaced persons of all political sizes and shapes. They need 
to go home. That groundwork to get them home has started. 
Tools, implements, farm equipment, agricultural extension 
services, all of that is needed. On top of that, they need to 
be assured that when they get home to their farm areas--and 
most of these people are farmers--that they are de-mined--the 
areas are de-mined. That they are not going to have to plant 
their mealie or cassava in an area that in fact still has 
mines. So we have a large de-mining project ahead of us, too. 
All told, for 2002, we have spent about $110 million on food, 
supplies, agricultural, HIV awareness, and HIV prevention.
    Consolidating peace in Angola requires, not only addressing 
the humanitarian crisis, but also immediate, serious 
consideration of the long-term economic development. A nation 
rich in both oil and diamonds, Angola has the resources needed 
to greatly improve the lives of its people, as you suggested in 
your opening remarks. This is a remarkable country when it 
comes to its natural resources that the good Lord has given it. 
The government must firmly put aside its statist past and 
embrace a free market system led by the private sector, and a 
private sector that is willing to invest in their own country.
    Angola must now begin to tackle the problems of 
corruption--and corruption is endemic at all levels. We will 
continue to encourage the Angolan Government to implement and 
enforce anti-corruption measures. We're helping train 
indigenous NGOs in how to track and spot corruption and how to 
``blow the whistle,'' if you will. We are also hopeful that 
multipartyism, a pluralistic system, will open up the field for 
criticism of those government officials that are participating 
in corruption. There's nothing better than an opposing 
political party to blow the whistle. And so we think that part 
of this pluralistic system is, in fact, an anticorruption 
angle.
    Mr. Chairman, the Angolan civil war is at an end. Our 
policy must now focus on the significant challenges associated 
with consolidating that peace. We see this as a window, a 
window of opportunity, and we look forward to working with you 
on how to let the Angolan people really take advantage of this 
very unique opportunity in their history.
    Thank you very much.
    [The prepared statement of Mr. Kansteiner follows:]

Prepared Statement of Hon. Walter H. Kansteiner, Assistant Secretary of 
             State for African Affairs, Department of State

    Mr. Chairman, Members of the Committee. Thank you for inviting me 
to testify today on the administration's policy towards Angola.
    The international community has a historic opportunity to assist 
Angola in following the right path after more than two decades of civil 
war and poor governance. Secretary Powell witnessed first hand the 
commitment of Angolans to securing peace and achieving national 
reconciliation and development during his visit there in September. The 
Administration believes that we should seize this opportunity to 
transform Angola from a war-torn nation to a center for stability and 
economic growth in southern Africa. Angola is blessed with tremendous 
natural resources, which can assist the country's positive 
transformation. But they must be used to benefit all Angolans and the 
region.
    Angola will have a prominent role to play in international affairs 
and in both the southern and central African regions. For the next two 
years, Angola will be seated as the African regional representative on 
the United Nations Security Council. The Government of Angola has just 
assumed the presidency of the Southern Africa Development Community.
    Our efforts in Angola are aimed at addressing humanitarian needs, 
improving governance, and building the private sector and democracy in 
the new post-war environment--all themes stressed with the Angolans 
during recent visits and underscored in our on-going diplomatic 
dialogue and assistance programs.
    As you are well aware, the February 22 death of the National Union 
for the Total Independence of Angola (UNITA) leader Jonas Savimbi and 
the subsequent April 4 demobilization accords ended a brutal civil war 
that cost one million lives and squandered billions of dollars.
    Since that time, more than 84,000 UNITA soldiers have reported with 
their families to 35 quartering areas and relinquished approximately 
35,000 weapons. Nearly 5,000 of these soldiers have been selected for 
integration into the Angolan Armed Forces (FAA) or National Police. The 
remainder were decommissioned on August 2. The demobilization process 
has gone smoothly, and effective reintegration over the long-term must 
include the assistance of local Angolan NGOs and the international 
community.
    This current success is due to the strong political will of both 
the Angolan Government and UNITA to finally bring the conflict to a 
definitive end. Angolans on both sides are tired of fighting and of the 
destruction that has characterized the country since its independence. 
The genuine desire to find a lasting peace and begin the process of 
national reconciliation was stated when President Bush met with 
President dos Santos on February 26 for the Southern Africa Mini-Summit 
and evident during Secretary Powell's September visit. For the first 
time, ordinary Angolans and politicians on both sides sincerely believe 
that peace has arrived to stay.
    Angola, in concert with the international community, must now find 
ways to consolidate this peace, achieve genuine democracy, protect the 
rights of its citizens, and better the lives of the Angolan people. 
This process has begun through the reconstitution of the Lusaka 
Protocol's Joint Commission under the chair of the UN Secretary 
General's new Special Representative Ibrahim Gambari. As a member of 
the Joint Commission's troika, the United States will play an active 
role in ensuring that the Joint Commission lives up to its Security 
Council mandate, a commitment highlighted by Secretary Powell in Luanda 
in September. We view the Joint Commission as a vital vehicle to help 
create the political framework that will enable the advent of multi-
party democracy in Angola.
    To that end, any attempts to place artificial time limits or 
restrictions on the body's work must be avoided. The Joint Commission's 
efforts must produce a comprehensive political framework that benefits 
all Angolans, not just UNITA and the governing Popular Movement for the 
Liberation of Angola (MPLA).
    The United States intends to remain engaged to help Angola achieve 
this peace. As a troika member, we continue to exert diplomatic 
pressure on the United Nations, UNITA, and the MPLA, stressing the need 
for the Joint Commission's work to develop a comprehensive, inclusive 
political framework for the country. We continue to train civil society 
actors, so as to strengthen their ability to influence Angolan 
government policy and to represent the needs of their constituents. We 
will assist Angolans to successfully make the often painful transition 
from a closed one party state to an open democracy, in training them on 
the role of political parties in a democracy, encouraging them to 
engage with local civil society organizations, and holding public 
hearings on proposed legislation. We also plan to train political 
parties, including UNITA to transform it from an armed rebel movement 
to a constructive opposition political party. And, we will work in 
concert with other donors to fund electoral preparations and ensure 
that free and fair multiparty elections occur.
    Strengthened protection of human rights is critically important to 
establishing long-term peace. During the civil war, grave human rights 
violations by the police, the FAA, and UNITA forces occurred. With the 
advent of peace, it is imperative for the international community to 
work with the police, the military and ordinary Angolans to improve 
understanding of international human rights norms and standards. Such 
efforts under the leadership of the United Nations have begun. Through 
our Democracy and Human Rights Fund, the United States supports human 
rights education and training programs for ordinary Angolans and 
supports indigenous non-governmental organizations (NGOs) in their 
efforts to educate Angolans on human rights and pressure the government 
to improve its human rights records. Similarly, human rights remain a 
key component of our on-going dialogue with the government. Equally, 
the Angolan judicial system must be reformed to ensure its independence 
and accessibility to all. We continue to pressure the government to 
include judicial reform as a critical component of its democratic 
transformation and to provide adequate resources for the court system 
to function effectively.
    The role of the Angolan Armed Forces, the FAA, will have to be 
carefully considered. Our engagement with the FAA will need to 
increase, primarily through increased diplomatic contacts with FAA 
leadership. With manpower strength of around 100,000, the government 
will need to define for the FAA a new mission in a post-conflict Angola 
that supports the political and economic development process. The FAA 
can also contribute to regional peacekeeping. The United States 
European Command (EUCOM) will invite General Cruz Neto and a delegation 
to visit the EUCOM Headquarters to receive briefings. The goal is to 
build a rapport to allow U.S. DOD officials and military personnel 
access and influence with Angolan civilian and military officials to 
help them to develop an apolitical and transparent institution. 
Training in civil-military relations, defense budgeting, and human 
rights are priorities in our new engagement with the FAA, an engagement 
that could benefit from a small carefully crafted expanded 
International Military Education and Training (E-IMET) program for 
Angola.
    While the Angolan civil war is over, it leaves numerous 
humanitarian challenges behind that if not adequately addressed could 
result in renewed societal conflict. 4.3 million Angolans are 
internally displaced as a result of the fighting, and 1.9 million 
receive ongoing humanitarian assistance. The end of the war has opened 
previously inaccessible areas to humanitarian organizations, and an 
additional 800,000 people there may require assistance by year's end. 
Compounding these concerns are the 80,000 former UNITA combatants and 
300,000 family members that remain in 35 quartering areas and are 
dependent on assistance. The United States has been supporting WFP 
feeding efforts in quartering areas through on-going donations of food 
commodities by the USAID Office of Food for Peace. In addition, the 
USAID Office of Foreign Disaster Assistance arranged three airlifts and 
two sealifts of emergency non-food items, including blankets, plastic 
sheeting, water containers, soap, kitchen sets, and health kits to the 
quartering areas valued at over $2 million.
    The United States has been at the forefront of responding to the 
humanitarian crisis with over $750 million in aid since 1990. Over half 
of our 2002 humanitarian assistance to Angola is food aid for 
vulnerable populations. Provided by the USAID Office of Food for Peace 
and USDA, it is valued at nearly $70 million. In addition, the USAID 
Office of Foreign Disaster Assistance is providing over $20 million in 
emergency support, including over $2 million for the quartering areas. 
The State Department's Bureau of Population, Migration, and Refugee 
Affairs is providing $9.9 million in earmarked funding to UNHCR to 
assist nearly 465,000 Angolan refugees in neighboring countries.
    Resettlement and reintegration of demobilized UNITA combatants and 
family members, internally displaced persons, and refugees are 
necessary to begin the country's economic recovery and lay the 
groundwork for elections. Success is dependent upon adequate support to 
enable Angolans to start over when they return home. In response, over 
$3 million in the Office of Foreign Disaster Assistance's budget will 
be used to procure tools and seeds for some of the 500,000 internally 
displaced that the UN Office for the Coordination of Humanitarian 
Affairs estimates will begin to return home this year. The USAID Office 
of Food for Peace, through its contribution to WFP, is supporting 
resettlement activities estimated at $23 million in FY 02. 
Additionally, the Office of Food for Peace is working to develop a 
resettlement program with a consortium of private voluntary 
organizations for FY 03. The Department of State's Humanitarian 
Demining Program is contributing $6.8 million this year to ensure the 
safety of returnees and other vulnerable groups.
    This is not to suggest that humanitarian assistance does not 
continue without challenges, particularly in the quartering areas. The 
Angolan Government failed to deliver much of its promised assistance, 
necessitating rapid international intervention to ameliorate 
deteriorating conditions. While donor aid has been provided, 
bureaucratic delays, lack of transparency, and a lack of adequate 
Angolan logistical support have delayed shipments and led to worsening 
conditions in a number of the quartering areas. We are pressuring the 
Angolan government to meet its commitments and ensure that assistance 
reaches intended recipients in a timely fashion.
    Consolidating peace in Angola requires not only addressing the 
humanitarian crisis, but also immediate, serious consideration of the 
long-term economic development of the country. A nation rich in both 
oil and diamonds, Angola has the resources needed to greatly improve 
the lives of its people. Angola has the potential to develop far 
stronger commercial ties with the United States and our companies, and 
to become in Africa and internationally a substantial and reliable 
supplier of energy. But the government must firmly eschew its statist 
past and embrace a free-market system led by private sector investment. 
And vast natural resources can be a magnate for problems of 
transparency and revenue use. Angola must begin now to tackle the 
problem of corruption at all levels and improve accountability. We will 
continue to encourage the Angolan government to implement and enforce 
anti-corruption measures. Training of indigenous NGOs, financing for 
Voice of America's Angola programs, and planned support to the 
independent print media are important strategies to strengthen our 
partners in this fight.
    International donors, NGOs, and the international financial 
institutions remain seriously concerned by the large amounts of off-
budget government revenue and expenditures in Angola. The Angolan 
Government must work with the international community to bring such 
financial transactions on budget and to negotiate a new program with 
the International Monetary Fund (IMF). In addition, the Angolan 
government must begin to increase its investment in the well-being of 
its people and the country's infrastructure to ensure that Angolans 
receive the peace dividend that they deserve. We continue to underscore 
to the Angolan government that both actions are necessary precursors to 
any significant international reconstruction efforts.
    Mr. Chairman, Members of the Committee, the Angolan civil war is at 
an end. Our policy now must focus on the significant challenges 
associated with consolidating the peace and effecting true national 
reconciliation. We will press forward, in partnership with all elements 
of Angolan society and the international community to build democracy, 
protect human rights, end the humanitarian crisis, and set Angola on 
the path towards development and economic growth. In this way, we can 
begin to strengthen both the Angolan state and the Angolan people. The 
Administration looks forward to working with Congress to that end.

    Senator Feingold. Thank you, Mr. Kansteiner, for your 
always clear presentation, and we appreciate your help with 
this. I have a series of followup questions.
    Would you go over to what extent the April 2002 cease-fire 
agreement has actually been implemented, which provisions have 
not yet been carried out, and what are the main implementation 
issues that remain?
    Mr. Kansteiner. The military demobilization component is 
essentially done. That is, the UNITA troops have come to the 
quartering areas. They have been disarmed. They have been 
demobilized. On August 2, those that were not going to go into 
the Armed Forces or the police were, in fact, decommissioned. 
Uniforms are gone. They are civilians.
    Those UNITA forces that will be integrated into the armed 
services, including the police, that process is just beginning, 
so we've got a ways to go on that, and we're watching that 
carefully, because that integration of UNITA forces into the 
FAA, into the police, is important. It acts as that balance. 
And it's also symbolic that former fighters are now actually 
serving in the same Armed Forces.
    A slightly different aspect, of course, is the internally 
displaced people. There are some 4 million, as I mentioned, and 
that is going to be a tremendous task to get those people 
reintegrated. We're talking almost a third of the population of 
Angola is not living where they want to live.
    Senator Feingold. Let me follow with a few more specific 
questions concerning the demobilization. Maybe you've already 
answered this, but I want to be sure. How many UNITA ex-
combatants and related military personnel were demobilized?
    Mr. Kansteiner. Well, I think we've got about 5,000 going 
into the--5,000 will be reintegrated, and so about 70, say, 
70,000 to 75,000 were demobilized.
    Senator Feingold. Do any of the UNITA personnel remain 
armed?
    Mr. Kansteiner. No. No, UNITA personnel. They have all been 
disarmed.
    Senator Feingold. How many former UNITA personnel have been 
integrated into the Angolan Armed Forces and to the National 
Police respectively? I think you talked about that some.
    Mr. Kansteiner. Yes. And again, that is a process that is 
ongoing, and it's nearly 5,000.
    Senator Feingold. That's the 5,000?
    Mr. Kansteiner. They have been selected. That integration 
is now just beginning.
    Senator Feingold. Is that a combined figure for the Armed 
Forces and the National Police?
    Mr. Kansteiner. That is combined. That is for both the FAA, 
the Angolan Armed Forces, as well as the National Police.
    Senator Feingold. What's the breakdown?
    Mr. Kansteiner. A hundred to the police and the----
    Senator Feingold. Dominantly the----
    Mr. Kansteiner. Yes, dominantly to the Armed Forces.
    Senator Feingold. OK. How many and what kinds of weapons 
have been surrendered by UNITA? And what has been the 
disposition of those weapons?
    Mr. Kansteiner. There have been all sorts and sizes and 
shapes of weapons, probably not as many as we had thought per 
man, but there were more UNITA forces than we had anticipated. 
A lot of them, quite frankly, were not armed. There were a lot 
of porters and foot soldiers that did not have weapons. But 
plenty of them did. About 35,000 total arms were collected, and 
I would guess the majority of that would be AK-47s.
    Senator Feingold. You talked about the conditions in the 
so-called ``family reception areas,'' FRAs, in which the 
demobilized UNITA ex-combatants and their dependents are 
quartered. How many are in the FRAs, and who is responsible for 
provisioning them with food and medicine? Are they adequately 
supplied? And until when and on the basis of what criteria will 
these FRAs remain in operation?
    Mr. Kansteiner. Well, that's a very good question and a 
very timely one. There are some 300,000 UNITA members and their 
families in these quartering areas. We had gotten reports a 
couple of weeks ago that the government was considering closing 
these camps and basically encouraging, I suppose would be the 
diplomatic word, those folks to return to their homes. Clearly, 
they weren't ready to be returned to their homes. The 
preparation to receive them in their homes had not been made. 
Again, back to the de-mining issue, tools, and implements, 
agricultural extensions, any kind of skilled training had not 
taken place. So we, in fact, demarched the Angolan Government 
to please refrain from closing these. They have refrained from 
closing them. They are still open, and these quartering areas 
are still up and running.
    They are currently being supplied. But, again, you know, 
these are the same quartering areas that we had to send in some 
emergency shipments to, back some months ago. We're concerned 
about it, and we're watching it closely.
    Senator Feingold. Are they adequately supplied now?
    Mr. Kansteiner. They are, yes.
    Senator Feingold. What is the Angolan Government actually 
doing to support the reintegration of ex-combatants? Say a 
little bit more about what they are doing.
    Mr. Kansteiner. Well, they have set up a new ministry for 
basically reintegration of their population, both ex-combatants 
and internally displaced people. They have a road map. They 
have a game plan. They are starting to work with the U.N. on 
how that road map is going to actually be implemented. We are 
encouraging them to work with the U.N. This is a task that's 
going to require a lot of helpful hands, and we think the U.N. 
can be helpful.
    My analysis is that the Angolan Government has the will to 
do this. They have the political will. It's an enormous task, 
and I think we need to help them with the actual implementation 
of it.
    Senator Feingold. What about humanitarian assistance? To 
what extent and at what funding level is the Angolan Government 
actually providing humanitarian assistance to its population?
    Mr. Kansteiner. They are providing significant humanitarian 
assistance, and we have explained to them--in fact, Secretary 
Powell explained to them, in no uncertain terms, that the more 
that they provide for their own people, they will actually get 
large dividends from the international community, because the 
international community will see that they are willing to spend 
their own money on their own people, and that encourages donors 
like us to do likewise. If they are stingy and withholding and 
looking like they are playing politics with their humanitarian 
assistance, we're all going to be that much more reluctant to 
come in. And they got it. And, in fact, in the last few weeks 
it seems as if they are moving toward bigger procurement, more 
frequent procurement.
    Senator Feingold. Is there some kind of quantification of 
this? Do you have numbers?
    Mr. Kansteiner. About $52 million in food stuffs and basic 
supplies in the last probably--well, probably since April, you 
could say.
    Senator Feingold. Let's talk a bit about the situation in 
Cabinda. Has the end of the war with UNITA led the Angolan 
Government to focus its efforts on definitively defeating the 
insurgency in Cabinda? To what extent does instability in 
Cabinda affect the rest of Angola or neighboring African 
states?
    Mr. Kansteiner. Well, the instability in Cabinda has been a 
long-term problem, as you know. And a few months ago, there 
were attacks on some lians that were very, very concerning. The 
security apparatus of the FAA did go up into Cabinda in a 
significant sort of way. It seems as if the security situation 
in Cabinda is improved, it's gotten better.
    Cabinda is also sensitive in the sense that it is in 
proximity to some of the oil-producing areas just offshore. 
Cabinda is probably the single largest producing block right 
now. Future blocks will end up producing more, it is our guess, 
but right now that is the major production source. So for the 
Angolans, it has a real national security import. But also it 
is one that has historically been problematic for them.
    Senator Feingold. Let me talk about another obviously 
important resource in Angola. Efforts to curtail sources of 
financial support to UNITA focused a great deal of attention, 
of course, on Angola's diamond sector. What can you tell me 
about recent efforts to regulate the diamond sector in Angola? 
And what do these efforts tell us about the prospects for 
reform in other sectors?
    Mr. Kansteiner. We actually have some fairly good news on 
the diamonds. The Angolan Government has been very cooperative 
with the Kimberly Process. The Kimberly Process, as you know, 
is now close to being signed in Switzerland early next month. 
The Angolan Government is moving to register small-scale miners 
and the middlemen who trade diamonds and establish basically a 
single channel diamond marketing system.
    This is one of those cases where a single channel marketing 
system is maybe not all bad. We're often talking about we need 
proliferation of the private sector, we want competition, and 
all that; but, in this particular commodity, it will be a more 
controlling influence, and we think it's probably a good step.
    But, basically, they are taking some actions. And, most 
importantly, they're willing to participate in the 
international Kimberly Process.
    Senator Feingold. It's my understanding that Angola is not 
currently eligible for African Growth and Opportunity Act 
[AGOA] benefits. Of course, one of the eligibility requirements 
for gaining these benefits relates to a subject that you've 
discussed already, anticorruption measures. What steps must the 
Government of Angola take in this regard before the 
administration will consider changing Angola's AGOA status?
    Mr. Kansteiner. Well, as you know, there is no one 
criterion that gets you in or keeps you out, but there are a 
number of factors. The corruption factor is clearly one. Human 
rights, we're concerned that there really isn't that much of a 
institutional capacity to implement good human rights policies.
    We also have economic measures that we are looking for: 
privatization, for instance. The Angolan Government has 
committed itself to a privatization process, but we haven't 
seen a whole lot of traction there. So I think, collectively, 
we'll have to look at all of them.
    Senator Feingold. What's the status of the International 
Monetary Fund's oil diagnostic audit? What actions, if any, is 
the Angolan Government taking to improve fiscal transparency 
and increase public accountability?
    Mr. Kansteiner. Well, I think there is some good news and 
bad news, Mr. Chairman. The good news is that the Central Bank 
is going through an audit system, and that's good. It's going 
well. It's working. Part of that, and in conjunction with that 
Central Bank auditing, is the oil diagnostic, which, of course, 
is to look at the cash-flow of the oil funds, where that 
revenue goes and how it's generated and how it flows and where 
it ends up. There are a number of private accounting firms that 
have been tasked with this, given a contract to do this, along 
with the IMF, and that diagnostic is seeming to be slowed. That 
study is seeming to be going very slowly.
    Why? I would say it has to do with the Angolan Government 
opening up their books and showing exactly how that money 
flows.
    Some of the oil diagnostic is complete. I mean, they have 
done some work. There's just some missing pieces of information 
that are very important, and the IMF, the United States, and, I 
say, the international community, writ large, is pushing hard 
to get these blanks filled in.
    I might just add, Senator, that there is also a piece of 
good news on the customs receipts. The Port of Luanda was long 
notorious for its ``falling off the back of the truck'' 
problem. You know, something like 25 percent of all goods that 
flowed through the Port of Luanda came up missing at one point. 
This was some 5 or 6 or 10 years ago. That has drastically 
improved with the implementation of Crown Agents, the British 
private firm that is now actually running Angola's customs 
receipts at the Port of Luanda.
    Senator Feingold. When did that start?
    Mr. Kansteiner. About 4 months ago.
    It took them awhile, as I understand it, to get up and 
running, but they are now in the process of becoming the 
customs agents for the country of Angola. It's good.
    Senator Feingold. Well, I certainly recall specific 
comments about this on both of my trips there, and I'm pleased 
to hear that at least something is happening in this regard.
    Why is the United States maintaining sanctions on UNITA at 
this point? And what benchmarks would have to be met before the 
sanctions would be lifted?
    Mr. Kansteiner. Well, that's a very timely question. We are 
now working with our colleagues in the U.N. at the Security 
Council, with our colleagues in the troika, to remove those 
sanctions. The notion that we're asking Angola to be a open, 
pluralistic, multiparty country and then have international 
sanctions against one party is schizophrenic and doesn't make 
any sense. So we need to go ahead and remove those travel 
sanctions, those financial sanctions, what they call 
``diplomatic sanctions,'' which essentially allows a political 
party to have an office overseas. We will be pushing and 
working with our U.N. colleagues to have those removed.
    Senator Feingold. Are you saying there are essentially no 
benchmarks that have to be met?
    Mr. Kansteiner. Well, there are a couple of other sanctions 
that we are concerned about. One is the arms sanctions, and we 
think it's probably wise to let those stay on. Political 
parties don't need weapons. So it kind of goes back to the 
notion of, well, what is good for pluralism? What is good for 
multipartyism in Angola? Guns aren't. But certainly a party 
needs finances.
    Senator Feingold. I've heard about that.
    Mr. Kansteiner. Exactly. And they certainly need to be able 
to travel. So with the benchmark being what makes sense for an 
open political system in Angola, that's what we're measuring 
against.
    Senator Feingold. What are the Angolan Government's primary 
post-conflict reconstruction priorities now that the civil war 
is no longer the government's top priority? What is the top 
thing on their agenda?
    Mr. Kansteiner. Well, it is exactly the question that 
Secretary Powell asked President dos Santos last month. And I 
was pleased--surprised, but pleased, to hear that President dos 
Santos' response was, you know, ``This country is a former 
Marxist, statist, centrally planned economy. What we're trying 
to move to is an open market, private sector-dominated economy, 
but I don't have a private sector. There is no private sector 
in Angola.''
    And so his No. 1 economic/development issue clearly was, 
``How do I build an entrepreneurial class in my country? How do 
I take what's always been owned and run by the government and 
actually put it into private ownership?'' And it was good that 
he clearly recognized this as a problem and wanted it to be a 
priority.
    Senator Feingold. You talked a little bit about the FRAs, 
and I believe you suggested that the government, for awhile, 
was considering closing them down, I think prematurely. But 
clearly one of the long-term goals, when you're talking about a 
third of the population, has to be resettling these people that 
have suffered so much. Yet has the Angolan Government made any 
real efforts in regard to preparing for that?
    Mr. Kansteiner. They're at the very early stages, quite 
frankly, and that preparation is everything from the de-mining, 
the infrastructure--i.e., roads. There has to be an 
agricultural extension--agricultural assistance of some kind. 
You cannot expect these people, although they are people of the 
land and know how to grow and know how to farm on a subsistence 
basis, they still are going to need the basic implements to do 
their trade. And the Angolan Government is just now wresting 
with how they get those things that are needed in the hands of 
those that need to go back home and start their lives again.
    Senator Feingold. Well, let's sort of tie the last two 
questions together, because you did indicate what President dos 
Santos said about his priority apparently being a very 
important issue of developing a legitimate private sector. But 
did Secretary Powell get a sense that President dos Santos 
believes that humanitarian issues and basic social services 
should also be a government priority?
    Mr. Kansteiner. He did, and we made that point, and we made 
it in the context of the internally displaced people. Everyone 
in Angola is in need of and deserving of social services, but 
those internally displaced people are at the bottom rung of the 
ladder, and they need at least something there to help them get 
on with their lives.
    Secretary Powell met with some street children in Luanda, 
which was fascinating, in the sense that here were internally 
displaced children that made their way to Luanda. And the 
stories they had to tell were harrowing. I mean, it was 
absolutely frightening to know what these kids have been 
through in the time of war, but it was also enlightening in the 
sense that they were incredibly optimistic because peace had 
come to their country.
    So it is a window of opportunity, and we need to push and 
cajole the Angolan Government into keeping their priorities 
straight, and we need to help out when we can.
    Senator Feingold. Well, let me strongly agree with that, 
because I was struck by the optimism of the people even in the 
midst of all this, in 1994 and 1999, in similar conversations, 
and also struck by the President's prism of reality being, 
obviously, this war and his fight with Mr. Savimbi. So what I'm 
looking for here, and I think we're all looking for, is a sign 
that he is ready to move on to these critical priorities for 
the people who have suffered so much.
    Finally, recently, reports have surfaced alleging that 
Angola has deployed troops to Cote d'Ivoire. What can you tell 
us about these reports? Are Angolan troops currently operating 
in other countries in the region?
    Mr. Kansteiner. Senator, I saw that same report this 
morning. We are looking into that.
    As far as Angolans in other countries, as you know, the 
Angolan troops have been in Congo Brazzaville and also Congo 
Kinshasa. They have some minimal troop levels in both those 
countries still, but I think they are relatively minimal.
    The Cote d'Ivoire issue concerns us, and we will be 
checking into that.
    Senator Feingold. I look forward to hearing from you when 
you determine that.
    Thank you very much, Mr. Kansteiner for your testimony, 
again.
    Mr. Kansteiner. Thank you, Mr. Chairman.
    Senator Feingold. All right. We have a very good second 
panel of witnesses today to follow Mr. Kansteiner's testimony. 
Dr. Morten Rostrup and Mr. Kramer, please come forward.
    Dr. Rostrup is president of the International Council of 
Doctors Without Borders, the private international humanitarian 
organization that won the Nobel Peace prize in 1999. Doctors 
Without Borders recently released two reports detailing the 
humanitarian crisis in Angola. A specialist in internal 
medicine, Dr. Rostrup headed the Norwegian branch of Doctors 
Without Borders before assuming his current position. He has 
experience working in Liberia, Kosovo, Sudan, Angola, Zaire, 
Rwanda, and Tanzania.
    Dr. David Kramer is an attorney with the Baird Holm law 
firm in Omaha, Nebraska. From 1996 to 1998, David served as the 
resident program director for the International Republican 
Institute in Rwanda. In August of 2001, David led a Consortium 
for Elections and Political Process Strengthening delegation, 
including representatives from IRI, the National Democratic 
Institute, and the International Foundation for Electoral 
Systems, to assess the prospects for elections in Angola. David 
returned with the Consortium for Elections and Political 
Process Strengthening delegation team to Angola in May of 2002 
to launch their report.
    Originally, we planned to have three witnesses, but, 
unfortunately, Global Witness was not able to send a 
representative. However, they have submitted written testimony, 
which I will now place in the record, without objection.
    [The written testimony of Global Witness follows:]

                  Prepared Statement of Global Witness

                               background
    Since December 1999 Global Witness has been investigating the role 
of oil and banking in the privatization of Angola's war. This work has 
followed from its launch of the ``conflict diamond'' issue in December 
1998. In March 2002, Global Witness published its second report, ``All 
the Presidents' Men,'' which provides the reader with a detailed 
discussion of the scale of state-looting in Angola. Please see web 
site: www.globalwitness.org
    Simultaneously over this period, Global Witness has been involved 
in a process of dialogue with key oil companies and government 
officials to explore how to deliver transparency of oil revenues into 
Angola. The central premise being that it is not possible for Angolans 
to hold their government to account for the expenditure of resource 
revenues, if there is no available information about government 
income--of which, according to the IMF, approximately 87% is derived 
from oil extraction and related activities.
            angola--looting the war, into looting the peace?
    It is hard to overstate the scale of state-looting that has taken 
place in Angola over the past few years. In 1993, following huge loss 
of territory to UNITA, the Angolan Government embarked on a desperate 
effort of self-defense, pulling out an SOS in the direction of the 
Mitterrand Presidency in France. This call for help resulted in the 
introduction of two key individuals who, following their being given 
Angolan diplomatic status, organised the funding and supply of weapons 
to Angola, through a Czech front company, which appears to have 
connections to the Russian heavy armament industry.
    The Angolan Government usually paid approximately 30-35% of the 
contract value of the shipments. Key individuals in the supply chain 
then acquired weaponry for approximately 25% of the contract value. 
Typically, this left approximately 10% of the contract value--the 
remainder of the Angolan Government's down-payment as spare cash. At 
this point, the remainder of the contract value would be made up by the 
negotiation of an oil-backed loan--where oil not yet extracted would be 
pledged against up-front payments from a variety of banks. This oil 
loan cash, together with the remainder of the Government down-payment 
would then be spare cash, available for the elite and all players to 
direct as required. As such, the Angolan State had a very poor deal, 
receiving weapons worth only a fraction of what was paid--in contrast 
to elites, where it is possible to argue that there was a financial 
vested interest for the conflict to continue. The scale of this 
operation was so vast that Global Witness estimates, conservatively, 
that at least US$1-1.5 billion has gone missing every year for the past 
five years.
                       after the peace--what now?
    Following the death of Jonas Savimbi, and the end of the war, 
Angola now has an ideal opportunity to change. However, Global Witness 
is concerned that the infrastructure of off-shore companies, trusts and 
organizations, established to supply weapons, finances and the capacity 
to loot state income remains in place. In fact, some of the individuals 
involved have worked their way into almost every sector of the Angolan 
economy and have become sufficiently elevated in importance that they 
broker access to the Presidency. Are we moving from looting the war, to 
the next phase of looting the peace--which is likely to be even more 
lucrative?
    There are a number of issues that continue to surface since the end 
of the war, which indicate a ``business as usual'' approach. They are 
best summarized as follows:

  <bullet> A perceived effort by some in the French judiciary that 
        France will close down the ``Angolagate'' investigations, 
        ending the possibility of there being a trial of amongst 
        others, Jean-Christophe Mietterrand, Charles Pasqua, Pierre 
        Falcone, and Arkadi Gaidamak.

  <bullet> A Judge in Geneva froze an account at a branch of the UBS 
        bank containing over US$770 million. These funds are believed 
        to be that which was stolen from an Angolan debt-to-Russia 
        renegotiation scam. Angola undertook significant diplomatic 
        effort to close down this investigation. The funds remain 
        frozen.

  <bullet> One of the key individuals involved in the structure of 
        state-looting in Angola continues to negotiate oil-backed 
        loans.

  <bullet> Angola passed a State Secrecy law in June 2002, which 
        appears to give the state (read elite) the capacity to declare 
        anything a state secret. This is a major threat to press 
        freedom and government accountability. There is a specific 
        clause relating to ``state income,'' which would tend to 
        suggest that the Government has no intention of releasing such 
        information, which would be a necessary precursor for 
        accountability.
                 the process of delivering transparency
    In February 2001, BP announced that it would publish payments and 
other data for its operations in Angola. Two weeks after, BP received a 
letter which threatened to terminate their contract, should they 
proceed, and which was copied to all the other oil companies operating 
in Angola.
    This brave move forward has had a profound effect on Global 
Witness' thinking about how to move things forward. This is because, on 
the one hand BP demonstrated that there is no legal excuse for all the 
other companies not to also declare their payments, but on the other, 
the reaction of the Angolan authorities clearly demonstrates the 
impossibility of making such a move unilaterally and on a voluntary 
basis. The threats to company interests are simply too high.
    For this reason, Global Witness is convinced for the need for a 
regulatory framework for companies to declare such data. Such a 
regulatory approach would not be a threat to any company, as all would 
have to do it. Our vision of how to move this forward is best 
encapsulated in a campaign we launched with George Soros and others in 
London in June 2002, called ``Publish What You Pay.'' This campaign 
envisages the quickest, most cost-effective and painless (for all) 
route to achieve transparency of income from this sector is through a 
listing requirement on all the major stock-exchanges that holds 
extractive company stock. The idea is that it would be a condition of 
listing, that companies would declare all net payments that they make 
to each government of operation. In this way, this issue now goes far 
beyond Angola. Indeed, though Angola makes a compelling case for one of 
the worst case scenarios, it is clear that lack of transparency of 
state income from extractive companies is a major problem in many other 
African countries; from an oil perspective, one only has to think of 
Equatorial Guinea, Congo-B, Gabon, Cameroon, and so on, not those areas 
beyond Africa, including countries such as Khazakhstan to see that 
there is an urgent need for such a move on a global basis.

    Senator Feingold. And I would ask, Dr. Rostrup, to please 
begin with your testimony.

   STATEMENT OF DR. MORTEN ROSTRUP, PRESIDENT, INTERNATIONAL 
COUNCIL OF DOCTORS WITHOUT BORDERS [MEDECINS SANS FRONTIERES], 
                       BRUSSELS, BELGIUM

    Dr. Rostrup. Thank you very much, Senator Feingold, and 
thank you for inviting Medecins Sans Frontieres [MSF] to this 
very important hearing.
    As you know, MSF, we have been working in Angola since 
1983, so we have been in the country, and vast parts of the 
country, for quite a long time period, and we have observed 
what has been happening in this time that has passed.
    I, myself, just to say that, also worked in Angola in 1997-
1998 in a small town called Camacupa where I was the only 
doctor in a very small hospital. And at that point of time, 
which was some years ago, I could already see the precarious 
situation of the civilian population: a very huge amount of 
malnourishment. We had very severe malaria cases. We had a very 
high case fatality rate. So it was pretty difficult to work 
under those circumstances. And we also witnessed at that time 
that the health system was not really functioning. And MSF, as 
such, we had to run the health care systems in many, many of 
the provinces in Angola.
    We had to evacuate Camacupa because of the resumption of 
the war in 1998, and, as you know, it has been--especially the 
last part of the war, from 1998 up until now, the cease-fire, 
has been a very, very difficult situation for the civilian 
population.
    The civilians there have been targeted in this war. They 
have been used as instruments in the war. They have been abused 
in this war. And last week, as you mentioned, we released two 
reports in Angola which are directly witnessing of the civilian 
population that survived this period. And I think these reports 
are very, very telling.
    What we are facing today, after the cease-fire, is a 
civilian population that has been suffered tremendously--both 
physically, but also mentally. There are a lot of traumas, 
psychological traumas, as you can imagine. And when the cease-
fire--and that was also one of the problems we faced in this 
last part of the war, humanitarian agencies who didn't have 
access to these agencies--so they were both abused in warfare 
and in denied access, and this made a kind of double suffering 
of these people.
    So what we did after the cease-fire was signed April 4, was 
that suddenly we had access to these areas and we did a lot of 
rapid assessments only to get to know that the mortality was 
very high and the malnutrition rate was also very high. We 
talked about mortality rates 5, sometimes up to 10 times what 
is considered the emergency threshold in this population, and 
we also had malnourishment figures of severe malnourishment, 
which is a life-threatening condition, affecting 13 percent of 
children in many places and went up sometimes to 20 percent.
    So the situation was very, very severe, and we launched a 
huge kind of relief response, one of the largest we have 
launched, in fact, MSF, and we have all in all now taken care 
of almost 16,000 children that have been in a very, very 
precarious situation.
    So I went back to Angola, in fact, in May and June just to 
get some firsthand knowledge about the situation, and I was 
very shocked at what I was seeing. I went to the quartering 
family areas, which they were called at that point of time, in 
which there was no assistance to them--to the civilians. I went 
to IDP camps. I went to the hospitals. I watched children die 
of malnutrition, hypothermia, hypoglycemia, all kind of 
conditions because they have a very reduced immune system.
    So I was pretty shocked about the situation and also lack 
of response. And I think I'm happy now, of the reports I've got 
from Angola is that the situation has improved considerably in 
many, many areas where they are working.
    Still, we do see a mixed picture in Angola today, and we 
still have, in fact, some areas in which there are still 
nutritional emergencies. I can mention Mavinga, in the eastern 
part of Angola, in which you now have a nutritional emergency 
going on, and we have 250 children in our feeding center for 
intensive care feeding, and we have to supply 10,000 people 
weekly with food rations.
    On top of this, we see epidemics. We have had some cases of 
shigella. That is blooded dysentery, which is a real killing 
disease when it affects a very malnourished population. And we 
have also seen the consequences of a stop in general food 
distribution due to the mines problems, and I will come back to 
that afterwards.
    In Baiundo, where I went in May, June, still we have a lot 
of children in our feeding centers. Still we have 90 children 
per week coming in a very severe condition. So even though we 
see a large improvement in many parts of the areas, we still 
have a nutritional emergency going on.
    And then I would call attention to the food insecurity, and 
I think this is also very essential, because whatever you do in 
a therapeutic feeding center, it doesn't help much if you don't 
have a general food distribution in place so you can prevent 
them to fall back into malnutrition. And there we have seen a 
total lack of resources. WFP is saying that they are 76 percent 
underfunded, that they have just one quarter of what they need 
to really supply 1.9 million people who now need food, and well 
into 2003.
    In addition to lack of resources, we see also huge 
logistical constraints. The roads are very bad, as you may be 
aware of. The rainy season is now coming up and makes it even 
worse. And, of course, access is severely hampered due to the 
mines and the mine problem. And we have instances that you can 
travel 150 kilometers or miles and use 3 to 4 days to travel 
this distance, just to tell how difficult it is to get around.
    There have been some mine incidents, because during the 
rainy season, which is coming up, the mines also have a 
tendency to move, so roads that were considered safe are not 
safe anymore. And there was last week, in Lavinga, a mine 
accident killing 13 people due to, supposedly, movement of old 
mines.
    We have also seen that in Kumbulu in Lunda Norte, that due 
to one of such mine incidents, they had to stop the food 
distribution because it was considered too risky. It had to be 
secured, these roads. And we saw an increased level in 
malnourishment pretty soon after this disruption in food 
deliverances. And it tells very clearly that the population now 
that have really survived the period of war and have been 
malnourished and been helped a bit back to a kind of life, they 
are very, very vulnerable, and it's not much disruption that is 
necessary for them to slide back into a severe malnutrition 
state.
    And, on top of this, we know that malnourished people have 
been suffering during the civil war. They also are very 
susceptible to get diseases, all kind of diseases, especially 
infectious diseases. The immune system is really not 
functioning a hundred percent in those patients.
    And then what we do see is a very disrupted health care 
system, as well, in Angola. Much was destroyed by the war 
itself and also by neglect in the years that has passed. So, in 
Lunda Norte, for instance, we did an assessment just some weeks 
ago in which we found a totally destroyed hospital and a health 
post who had 4 people. They hadn't received any salary for some 
months. They didn't have any medicines to give to the people. 
And, of course, if they have this kind of health care system, 
we will see a lot of problems in these vulnerable people.
    We have already seen the measles epidemics. We have 
launched a vaccination campaign, the Minister of Health, as 
well, for thousands and thousands of children, because this is 
also a killing disease when people are so malnourished and have 
been through the civil war and really been shaken up. And we 
see also TB. It's a problem. Malaria is striking pretty 
severely. And this is constituting, then, another problem, the 
lack of, really, a health care system in place.
    And then, on top of this, again, we see population 
movements. We see people--some spontaneously--trying to move 
into their places of origin, and some of them hope that there 
will be support in these places, and there should be, before 
people move to a place, there should be a certain minimum 
support to these. There should be shelter, there should be 
food, there should be water, there should be a health care 
system, there should be security, when it comes to mines, and 
there should be some authorities in place. Many places, this is 
not at all there.
    And the United Nations, themselves, they estimated that in 
August and September there were 6,000 to 10,000 people per day 
spontaneously moving back to their home places. But only in 20 
percent of these places, the conditions were acceptable.
    So what we see is a vulnerable population on the move into 
areas where there is very little, if any, assistance. And what 
will happen later is that they have to move again to get 
assistance. And this continued movement of people will make 
them even more vulnerable.
    We have also observed that authorities have tried to put 
some pressure on people to move back to their places of origin. 
We have an incident in Qatata recently in which MSF also 
protested and said that, for the first, we should not put 
pressure on people to move. It should be a voluntary and well 
informed movement of people. And to do this was not according 
to international standard rules. So the pressure was stopped at 
that incident.
    In May, we observed that also people were told to go to a 
certain place and told that there was assistance. We went to 
this place. There was nothing. And thousands of people had 
moved to this place. So I think it's very important to focus on 
the criteria for resettlement in this very precarious situation 
of the people there.
    We also have registered that there was a point of closing 
the reception areas, but that has now been changed, and that 
is, in our opinion, also good.
    So, just to make a short conclusion of the situation, as we 
see it, as a humanitarian organization, we have millions of 
people in a very precarious situation still. Even though the 
peak of the emergency is over, these may enter into a new 
emergency situation if they are not assisted satisfactorily.
    We do still find pockets of famine. There are still areas 
in Angola where nobody has been to assess the situation. It's 
very difficult. But still, we have perhaps defined even more 
pockets of famine. And what is needed, definitely, is more 
food, more support. WFP doesn't have enough resources to deal 
with the crisis. Access problems, de-mining here is pretty 
essential to get access to the people and get supplies to them.
    The health care system must be given the utmost priority, 
building up a system that effectively can take care of the 
people. And the resettlement must be voluntary and well 
informed and only encouraged to places where there is support 
in place.
    So, thank you.
    [The prepared statement of Dr. Rostrup follows:]

  Prepared Statement of Dr. Morten Rostrup, President, Medecins Sans 
         Frontieres/Doctors Without Borders, Brussels, Belgium

    We want to thank the Senators of the Committee on Foreign 
Relations, especially Senator Feingold, for this opportunity to report 
on the recent and current humanitarian situation in Angola. At the 
hearing we hope to bring to your attention what we believe are the 
major humanitarian issues that require urgent consideration.
    Doctors Without Borders/Medecins Sans Frontieres (MSF) is an 
international, independent emergency medical aid organization that has 
been working in Angola since 1983. Since then MSF has worked in 15 of 
the 18 provinces, running primary health care services in displaced 
camps, nutritional programs and emergency feeding programs, supporting 
hospitals and other health structures and running surgical, sleeping 
sickness and tuberculosis programs. Our medical presence alongside the 
Angolan population, all directly affected by the war, provides us with 
a clear understanding of the scale of the humanitarian crisis in 
Angola, its causes, and what must be done to assure the medical 
wellbeing of the Angolan people.
    It is premature to think that the post-conflict situation in Angola 
has become normalized. A large number of Angolans are still in a 
precarious situation. This testimony will address the continuing 
nutritional crisis; food insecurity; MSF's concerns about the 
resettlement of displaced people; and the lack of access to health care 
for many Angolans.
                             1. background
    The end of the fighting in April revealed a humanitarian crisis 
previously hidden during Angola's three decade long war. Hundreds of 
thousands of starving civilians emerged from rural areas to which MSF 
and other agencies had been denied access by both the Angolan Armed 
Forces (FAA) and UNITA. Our teams recorded mortality figures nearly 
four times greater than what is internationally accepted as the 
threshold for an emergency. Rapid assessments found moderate 
malnutrition rates as high as 50% and severe acute malnutrition higher 
than 20%.
    These people were starving not because of natural disaster, drought 
or crop failure, but as a direct result of how the war was fought. War 
tactics pursued by both parties directly caused the pockets of famine 
MSF encountered immediately after the ceasefire. In willful violation 
of international humanitarian law, both warring parties cut civilians 
off from humanitarian assistance for years. From 1998-2002, sanctions 
against UNITA, compounded by UNITA's own strategies, prevented agencies 
to operate under areas they controlled. The Government of Angola 
restricted aid agencies to provincial capitals, and even in these 
government-held regions, the neglect of the health system led to a 
near-complete failure of health services.
    Peace may have silenced the guns, but it did not bring relief: 
thousands of Angolans who had survived the horrors of the war, and who 
could have been saved, died needlessly. For example, in Malange 
province, MSF found in May that 17% of the women whose children were 
receiving emergency nutritional care said they had lost children since 
the beginning of 2002.
    Consistent with these urgent needs, MSF mobilized its largest 
worldwide operation, with 175 international volunteers and 2,200 
national staff working or monitoring activities in 15 of Angola's 18 
provinces. Unfortunately, the slow humanitarian response to this 
immense crisis by the Government of Angola, aid agencies and the UN, as 
well as serious logistical constraints, prolonged the crisis throughout 
the summer.
    So far MSF has treated more than 16,000 children at our therapeutic 
feeding centers (TFCs). In June, we were treating 3,600 children in 
more than 20 intensive feeding centers throughout the country, and 
provided supplementary feeding to more than 10,400. A preliminary 
retrospective mortality survey showed death rates of 3.3/10,000 per day 
for children under 5 years of age.
                        2. the current situation
          ``My husband received half a cup of rice. We, the family, 
        received half a cup of rice and one tin of sardines. That was 
        one month ago. Since then no one has given us anything. . . . 
        We haven? eaten anything for four days.''*

*J, 27 year old woman, mother of four children, one of whom is cared 
        for in an MSF nutritional center in Mavinga, Cuando Cubango 
        Province, June 2002.

Current Nutritional Crisis
    Today, Angola presents a mixed picture. Across the country, we are 
treating 1,400 children at 14 centers for acute severe malnutrition. 
While the acute emergency has eased in most parts of the country, 
localized emergencies persist, particularly in Mavinga and Bailundo.
    The worst nutritional crisis is unfolding in the southeastern town 
of Mavinga. In this pocket of dramatic famine, we are treating 250 
children in our Therapeutic Feeding Center (TFC); we are supplying 
10,000 children and vulnerable adults with weekly food rations there 
and in two nearby Reception Areas with a combined population of 70,000. 
Families walked through the bush for weeks to reach Mavinga, abandoning 
their homes and fields, and had no means to provide for themselves. 
Some people starved after arriving. A recent shigella outbreak (bloody 
dysentery) affected 392 patients, and 100 people remain in an isolation 
ward.
    When General Food Distribution to the area was halted in August 
because mines were discovered on the landing strip, an estimated 10,000 
people went to Mavinga in search of food, overwhelming the town and our 
feeding facilities. Our medical teams even report that children treated 
in our TFCs during the summer have been readmitted in the past few 
weeks with the same deadly symptoms of acute malnutrition.
    Conditions are serious in Huambo Province as well, where MSF is 
currently treating 350 children in therapeutic feeding centers in 
Bailundo alone. This is certainly an improvement over the past 2 
months, when we were treating more than 600. But we receive 90 new 
patients each week.
From Famine To Food Insecurity
        ``  We don't have food or clothing because we didn't get 
        anything when we arrived. The people from the WFP came by two 
        weeks ago to register the population, but they haven't been 
        back since. They say they want to give us food for two weeks so 
        that we have enough time to return to Jamba Queio, but we don't 
        know when the government is going to decide on our return. For 
        the moment to get food to eat, the women work in nearby fields. 
        One day of work equals one basket of manioc. People who have 
        family in Menongue are getting help from them.''*

*M, about 50 years old. He is originally from Huambo Province, June 
        2002.

    There should be no sense of false security. Even though the people 
we treat successfully may be strong enough to leave intensive care, 
they are still in the process of recovering from horrific conditions. 
MSF continues to gain access to some previously cut-off regions, 
finding high levels of malnutrition. The survivors of today are in an 
unsteady state, and it will not take much to disrupt such a fragile 
balance.
            Lack of Resources
    Several categories of displaced people each received different 
levels of attention: the 85,000 former UNITA combatants along with 
350,000 family members regrouped at 38 Reception Areas (RAs), a ``new'' 
IDP population of those who were trapped in isolated areas during years 
of conflict, and the approximately 335,000 Internally Displaced People 
receiving food aid prior to the April 4th ceasefire agreement. There 
were also those in the ``newly accessible areas'' immobilized by 
illness or the threat of mines. WFP integrated all of these groups into 
one caseload, increasing their estimate of people requiring food aid 
from 1.5 to 1.9 million.
    The WFP estimates these nearly 2 million people will need food aid 
for their daily survival until well into 2003. These people are 
extremely vulnerable to inconsistencies in food supplies, and their 
nutritional status could quickly deteriorate if confronted with 
prolonged interruptions in aid deliveries.
    Agencies involved in food supply already operate under several 
constraints. As of early October, WFP's budget for Angola was 74% 
under-funded, and cereal supplies are predicted to run out in January. 
Even now, the WFP is delivering one month's worth of food every six 
weeks in Mavinga, further weakening food security. Donor countries need 
to insure such interruptions do not occur.
            Logistical Constraints
    Food distribution is severely hampered by logistical constraints, 
by the ever-present threat of mines, and by damaged roads and collapsed 
bridges. For example WFP General Food Distributions have been suspended 
in large parts of Huambo, Cuanza Sul and Cuando Cubango Provinces 
because they do not have enough heavy-duty vehicles needed to transport 
cargo across rough terrain, they have difficulty identifying 
Implementing Partners who manage on site general food distributions, 
cannot ensure the security of field staff because of the presence of 
landmines.
    One of the major humanitarian priorities will be demining. 
Provisions must be made to expand and accelerate demining activities. 
In spite of investments in demining programs and increases in demining 
teams, mines remain a significant threat throughout the country, 
particularly on those routes that have not been traveled for decades. 
For example, the detonation in August of two anti-tank mines in the 
Cuango area led to the suspension of all aid to Xa-Muteba RA for 
several weeks. Further such incidents, complicating the delivery of 
aid, should be expected. The scale of the problem demands far greater 
resources.
    The network of roads has not been maintained for years, and bridges 
spanning key rivers are down, posing a constant challenge to access. 
Travel from Malange to the quartering area in Xa-Muteba, Lunda Norte 
Province, a distance of about 150 miles, can take three to four days 
because a bridge is destroyed and up to a hundred trucks queue at a 
river ford waiting to be hauled across. The journey from Luanda to 
Mussende in Cuanza Sul Province should take less than a day. It took 
MSF three days last month, traveling roads that had not seen traffic 
since before the war and crossing bridges only designed for 
pedestrians. Mussende RA with 10,700 residents has still received no 
food aid.
    The rainy season, in full force by the end of October, poses a dual 
threat to access. The already deteriorated roads will become impassible 
as torrential rains erode the unpaved stretches, undermine weakened 
pavement, and turn the powdery dry clay into deep bogs that few 
vehicles can negotiate. Intense rains also expose buried landmines and 
set them in motion. Areas previously thought safe will suddenly and 
tragically prove otherwise. Just outside the city of Malange last week, 
thirteen people were killed when their van swerved just off the main 
road to avoid a pothole and hit an antitank mine that was probably 
placed years before at a long-since forgotten checkpoint. It is likely 
that recent heavy rains had eroded previously compacted earth above 
this mine to render this stretch of road lethal once again.
    This combination of a destroyed road network, the presence of 
mines, and the lack of long term funding commitments compromises the 
food security of this vulnerable population.
Lack of Access to Health Care
          ``The government does nothing for the people of Angola. They 
        just take the money for the school and hospital and put it in 
        their pockets. It doesn't matter to them, because if their 
        child is sick they just send them to Namibia or South Africa 
        and they just send their children to school to be educated 
        outside Angola. This is the way it is here in Angola.''*

*Elderly displaced man from Jamba Municipality, Huila Province, Nov. 
        2001.

    As the malnutrition emergency recedes, lack of general healthcare 
comes more into focus.
    The health care infrastructure in Angola was not only destroyed by 
war. Years of neglect have left most Angolans with inadequate basic 
services. The problem is especially acute in the areas to which people 
are returning. Before the ceasefire MSF was present in 11 of the 18 
provinces of Angola, operating feeding centers and supporting hospitals 
with medical personnel and drugs. We continue to support hospitals and 
health posts in nine areas in addition to operating feeding centers.
    Outside the former security cordons, extending around provincial 
capitals, we see little improvement in the provision of healthcare. 
Preventative healthcare is rarely provided, and curative care at the 
primary level is either non-existent or limited to infrequent and 
inadequate supplies of drugs. Referral services are similarly not in 
evidence. In a recent assessment to Lunda Norte province, we found that 
the hospital had been destroyed during the war. The health post had 
been without medical supplies since July, and the 4 person nursing 
staff had not been paid for months. This is the only health facility 
serving an area that, when last surveyed, had a population of 147,000.
    Reports of measles outbreaks continue to confirm the poor 
vaccination coverage countrywide. MSF has reported Measles outbreaks in 
Saurimo, Jumenge-Cameia and Lago Dilolo municipalities in Mexico, and 
in Cuanza Sul and Lunda Sul Provinces. Sometimes reported outbreaks 
prompt authorities to carry out vaccination campaigns, and MSF itself 
has vaccinated more than 50,000 children against this deadly disease.
Return and Resettlement
          ``We all want to go back to living like we did before, in 
        1978 and 1979. The public servants could stay here in the town. 
        The ordinary people could go back to their fields and take 
        responsibility for themselves again. We know that all this will 
        take time, but we have hope, hope that everything will turn out 
        alright.''*

M, 32 year old man living in Mavinga with his wife and two children. 
        June 2002.

    Massive population movements over recent months, as well as further 
anticipated movements threaten to affect food security adversely. MSF 
is seriously concerned that the resettlement process is not proceeding 
according to international standards or national laws. Resettlement 
must be voluntary and returnees well-informed, and only in places that 
have minimum necessary access to drinking water, food, shelter health 
services, seeds and tools, healthcare assistance and government 
administration.
    MSF has observed acute food shortages and inadequate sanitary 
conditions among the 430,000 people living in RAs. These camps cannot 
be closed without providing the mechanisms necessary for resettlement.
    Where resettlement for hundreds of thousands of displaced Angolans 
has already occurred, it has been hasty and haphazard. The UN estimated 
that during August and September, between 6,000 and 10,000 people per 
day were spontaneously returning to their place of origin. Up to 80% of 
these people were returning to areas that were considered unsuitable 
for resettlement.
    Population movements also seem to have occurred through pressure. 
MSF discovered how local authorities in Catata told the people living 
in displaced camps that they were obliged to return to their village of 
origin, and that their huts would be destroyed. MSF notified those 
responsible that any return had to be voluntary, and in the end, people 
were allowed to stay.
    An earlier example of this is the departure in May of about 12,900 
displaced people from camps surrounding Kuito in Bie Province. This 
movement followed administration assurances that there would be no more 
aid for them in Kuito and that food and materials would be distributed 
in Trumba, 30 km away. Aid agencies were not informed of the 
administration's decision, and on a subsequent visit to Trumba, MSF 
found that there was little provision of assistance.
    Spontaneous movements or an accelerated resettlement process 
jeopardizes the safety and health status of returnees. Any return 
should be voluntary, well informed, and in accordance with 
international standards and norms. Only then will these people receive 
even a measure of the dignity that has been denied them for so long.
                   3. conclusions and recommendations
          1. Emergency nutritional needs must be met in the isolated 
        pockets of dramatic famine that persist. And nutritional 
        assessments must continue to areas that are still cut off from 
        assistance.

          2. Sufficient food stocks and their delivery must be 
        guaranteed to ensure that food reaches the nearly 2 million 
        people estimated by WFP who will require such assistance well 
        into 2003.

                  a. Donor commitments must be met.

                  b. Access to isolated populations is seriously 
                hampered by a severely deteriorated road network and 
                destroyed bridges spanning major rivers.

                  c. De-mining operations must be accelerated to 
                support food distribution programs, the provision of 
                health services and the resettlement process.

          3. People must be provided with adequate basic health care, 
        with a focus on training, primary health care, and basic 
        referral systems.

          4. Resettlement must be voluntary and returnees well 
        informed. The process must be implemented in compliance with 
        international standards as well as the government of Angola's 
        Norms on the Resettlement of Displaced Populations. This 
        includes:

                  a. The adequate assessment of resettlement areas to 
                ensure security, access to health care, and proper 
                sanitation.

                  b. The prevention of forced and coerced resettlement.

                  c. Meaningful protection for returnees.

                  d. The distribution of food, non-food items, seeds 
                and farming tools to provide returnees with food and 
                shelter while they resume farming activities to become 
                food self-sufficient.

    Senator Feingold. Thank you, doctor, for your excellent 
testimony and certainly your work and the work of your 
organization, the commitment to the people of Angola throughout 
these many years, and especially now, when, despite the very 
serious problems, there at least is some hope that maybe some 
of these can be resolved. So I thank you for being here and for 
your work.
    Mr. Kramer, you may proceed with your testimony.

   STATEMENT OF DAVID KRAMER, ATTORNEY, BAIRD HOLM, OMAHA, NE

    Mr. Kramer. Mr. Chairman, thank you very much. It's a 
pleasure and a privilege to be here today.
    My name is David Kramer. And in the fall of 1996, a series 
of personal and professional events came together in a 
confluence that gave me the opportunity to move to Luanda, 
Angola. And I'll never forget the phone call I got when I was 
asked, ``Do you even know where Luanda, Angola, is?'' And I 
said, yes, that I had followed U.S. foreign policy. I had 
followed that region of the world for some time, and I looked 
forward to the opportunity to move to Luanda and work with the 
Angolan political parties, with the Angolan Parliament on 
political party development, national reconciliation, and 
parliamentary reform.
    What brings me here today is an opportunity that I had last 
fall as the head of a delegation--and one of my colleagues from 
IFES, the International Foundation for Election Systems, Laurie 
Cooper. I want to say thank you to Laurie for being here. Also 
to the representative of the National Democratic Institute 
[NDI], who, Jamina is here, as well. And I want to say a 
special thanks to my colleagues who participated in that 
mission and who returned with me this past spring to present a 
report \1\ outlining what steps the Angolan Government needed 
to take, the international community needed to take, and 
political parties and civil society in Angola needed to take in 
order to prepare for a situation where they might have 
elections.
---------------------------------------------------------------------------
    \1\ The report is entitled, ``Angola Pre-Election Assessment 
Report,'' March 2002. The assessment was conducted by the International 
Foundation for Election Systems, International Republican Institute, 
and National Democratic Institute, and can be accessed at www.iri.org.
---------------------------------------------------------------------------
    And I want to talk a bit today, not so much about 
elections, but about basic conclusions of our report that deal 
with what steps need to be taken, what priorities there ought 
to be for democratic advancement, in general, in Angola, which 
may ultimately one day lead to elections, with particular 
emphasis on civil society and political parties, which we 
focused our report upon.
    I'd also like to take the opportunity to share a little bit 
about what our perception is on the relationships between 
governance, corruption, and the conditions that exist currently 
for the Angolan people, and some recommendations that we have 
about foreign policy in the future toward Angola.
    We start from a series of fundamental premises that are, I 
think, very important to remember, and we often, as Americans 
who travel abroad, forget. But in Angola, it's the Angolans who 
have to drive the process of democratic growth, of 
transparency, of good governance, with the support, 
encouragement, and sometimes open criticism by the 
international community. And we, in the United States, have a 
particularly important role to play in Angola, given our 
historical involvement there and given the respect that we have 
among all Angolan players today.
    Second of all, that it ultimately will be the Angolan 
Government that has the primary responsibility for creating the 
conditions for there to be real democratic growth in Angola. 
It's easy sometimes to be in the opposition, because all you 
have to do is point the finger. It's very hard to govern, and 
we have to encourage and support the Angolan Government as they 
go forward trying to make the reforms necessary.
    The third fundamental premise that we operated under is 
that the process of democratic growth must be one that is a 
result of free, open, and broad-based discussions among 
Angolans, not just among the political elite, not just among 
the economic elite, but among the broadest segments of society 
possible, bringing in the civil society organizations, bringing 
in political parties, bringing in all interested citizens.
    And the fourth fundamental premise that I wanted to mention 
today is that peaceful elections in a climate of openness, 
trust, and national reconciliation based in a constitution 
that's accepted by Angolans are a necessary step on the road to 
bringing true democratic development to Angola.
    And it's interesting that we've talked a lot--I heard 
earlier testimony by both of my colleagues who are testifying 
today about ways to encourage the Angolan Government to 
effectuate change. I believe that the way we are most likely to 
encourage the Angolan Government to effectuate change is if the 
Angolan people themselves demand it of their government.
    And we've talked today about optimism in Angola. I received 
an e-mail message from a friend of mine yesterday, and I would 
like to emphasize that Angola is a country that has been at war 
for 30 years. They have been in the longest sustained period of 
peace now for about 6 months. And there is incredible optimism, 
thousands and thousands of people in Angola who have been 
reunified with family members who they thought were dead. 
People who believe and now--at a time of war, when there was no 
opportunity for the government and others in power to point the 
finger at UNITA or point the finger at war--there is now an 
opportunity for them to begin the process of providing basic 
services to the Angolan people. And, more importantly, I think, 
there is opportunity for the Angolan people to demand that of 
their government.
    There are a number of priorities that we identified in our 
report that ought to be focused on. First, the restoration of 
basic freedoms. It's easy to harp on the negative.
    And I want to emphasize that, since 1992, there has been 
significant progress in Angola on basic freedoms, freedom of 
expression, freedom of association, but the progress is not 
enough. There are huge numbers of displaced persons, which, 
from our perspective, is the second critical priority, 
relocation of displaced persons. And, doctor, I think you said 
it best when you talked about the fact that it has to be 
voluntary, that we have to create the conditions for people to 
be able to choose, do they want to stay in Luanda or in Huambo 
or wherever they're at, or do they want to go back? And it 
shouldn't be a forced one before the conditions are created.
    Third, a critical concern about the situation in Angola is 
that while we talk about that there may be 12 million, 13 
million, 15 million Angolans, there are many Angolans who 
aren't--we don't dispute they're Angolans, but have no way of 
proving it. They have no basic means of identity documentation. 
And as the process goes forward for preparations for elections, 
for preparation for participation in basic government, who is 
it that's entitled to receive benefits? People who cannot even 
establish that they're Angolan citizens will have a much more 
difficult time to participate in all segments of the process.
    The fourth priority we've spoken about is the lessening of 
state control of the media. There has been some political 
liberalization of the media since 1992, but it continues to be 
state owned and state run. There is one truly independent 
media, the Catholic station, Radio Ecclesia. If there is to be 
development, from a perspective of freedom of expression, 
ability to air alternative ideas, the ability to question 
government, the ability to look into transparency issues, there 
has to be a freedom of expression, freedom of greater access to 
the media.
    The fifth priority we talk about would be the strengthening 
of civil society and political parties. The emergence of a 
politically active civil society of organizations is one of the 
largely unheralded events in Angola that's occurred over the 
last several years. It's exciting to see people in the midst of 
war come together to advocate for social justice issues, for 
basic equity, for basic human rights--not just the 
international community, but Angolans doing so of their own 
volition. Well known political party activists are beginning to 
work together with civil society organizations, which is 
something that never happened.
    We know, in this country, that we talk about the influence 
of special interests. Special interests have influence why? 
Because we, as those in politics, listen to our constituents. 
In Angola, that doesn't happen.
    And so as we help the development of civil society, I 
believe very strongly, and our report articulates, there has to 
be a parallel assistance in development on the political side 
of things, and, more importantly, creation of the expectation 
that the two should not run parallel paths, but that the two 
should interact with one another and that there's a 
responsibility on the part of those who govern to listen to the 
governed.
    With respect to the political parties, there is not a level 
playing field in Angola today. There is only one political 
party that has the control of state resources to engage in its 
activities. If we want to have a multiparty system, there are 
significant issues that will have to be addressed to that. The 
recent reunification of UNITA is a good step in that direction, 
and there are 3 or 4 other political parties that have 
significant potential at whatever time there may be an 
opportunity for there to be elections.
    The sixth priority ought to be, and it's an internal one 
for Angolans, the resolution of the constitutional question. 
There's a debate today over whether or not there should be a 
new Angolan constitution. It's something that needs to be 
resolved before they go forward.
    The seventh priority would ultimately be preparation for 
elections, electoral reform, setting a date certain for 
elections, because I believe, as a political activist, that the 
impetus for the Angolan Government and for other political 
parties to begin to pay attention to what's going on in Angolan 
society will be the prospect of elections. And as the Angolan 
Government--one of the recent comments that we heard on 
numerous occasions while we were in Luanda in May was that many 
people believed, with the advent of peace, that the government 
would feel a greater responsibility to provide basic services 
to people on the thought that there might be an election. And 
the longer it got away from war, the harder it would be to 
justify the continuance of the types of situations that have 
been talked about today.
    Let me close by making a few basic recommendations and a 
comment. There's no question that good governance, 
transparency, corruption, all lead to the inability of the 
Angolan citizens to participate in the system and really to 
demand change. And everything that we've tried to encourage in 
our report has been designed to increase transparency by the 
government, but also to empower and encourage citizens in 
Angola to demand that of their government and, interestingly, 
to demand it of their political parties. As we've talked about 
political parties who criticize the government for not being 
transparent, but who are not transparent in their own finances, 
we talk about that basic hypocrisy. And why should we trust 
them, as a political party, to govern differently if they don't 
handle their own internal affairs the same way? And so 
transparency is a large component of what we talk about in 
preparation for a new Angola.
    As to a few recommendations, Senator, I can't emphasize 
enough, having lived on the ground for 2 years, having 
continued to stay engaged in Angola, that we have to adopt a 
policy and stick to that policy for an extended period of time. 
We have a tendency in--the good folks at USAID, who I've duked 
it out with on one occasion or another--have a tendency to 
change policy in midstream at a point at which you're just 
beginning to make headway. We ought to commit to what our 
policy is going to be, fund our NGOs to implement that policy, 
and let them go, instead of nickel and diming them and changing 
direction every couple of years. I understand the difficulty of 
demonstrating results, but having lived on the ground, I've had 
my feet cut out from under me more than once because, just as 
we are making progress, somebody decided they wanted to go a 
different direction.
    Second of all, I believe very firmly that this commitment 
ought to be made not just to civil society. Civil society must 
work together with the political side. And if civil society 
advances much faster than the political component, and there 
are those in Angola who will tell you that over the last two 
and a half years civil society has advanced much more quickly 
than the political, because there's not capacity building going 
on--you're going to have the inability of the political to 
respond to the demands of civil society.
    Last, I would say let's focus on the fact that only 6 
months have passed since the cease-fire. The last time we went 
through this exercise, UNITA's leadership did not come to 
Angola--to Luanda. They're all there today.
    There is tremendous opportunity. I, perhaps, am one of the 
few people who would describe himself as an optimist about 
Angola. The people of Angola are excited. I'm excited. The 
members of our team who were there are excited. We think 
there's great potential because of the vast resources they 
have, but, more importantly, because of the resiliency of the 
Angolan people. And so I would hope that we could do everything 
we can to support them in their endeavor to become an example 
of success in Africa.
    Thank you, Mr. Chairman.
    [A press release on Angola Political Environment follows:]

                   [Press Release, October 16, 2002]

 IRI Consultant, David Kramer, to Address Congress on Angola Political 
                              Environment

    Washington, D.C. --David Kramer, a consultant for the International 
Republican Institute (IRI), will testify before the Senate Foreign 
Relations Committee on Wednesday, October 16 in a hearing on Angola's 
political climate and the prospects for future democratic elections.
    Angola's political landscape has changed drastically in 2002. The 
death of UNITA leader Jonas Savimbi in February, the renewed 
implementation of the Lusaka Protocol and the resulting return of the 
Angolan Joint Commission have brought an end to the country's 27 year 
civil war. These developments may provide Angolans with the first real 
opportunity in decades for sustained peace and a new era of democracy.
    Kramer will address the country's political environment, as well as 
potential challenges in the current peace and reconciliation process. 
Kramer will share the joint assessment recommendations with 
congressional members regarding Angolan government, political parties, 
civil society organizations and the international community 
preparations for fully participatory and open elections. Additionally, 
Kramer's testimony will provide benchmarks by which Angolans and the 
international community can evaluate the reconciliation process' and 
the election process' progress.
    Kramer's comments will be based on a joint political assessment in 
which IRI participated with NDI and IFES in August 2001. The assessment 
took place in Luanda and involved meetings with representatives of the 
Angolan government, the president of the 1992 Angolan Electoral 
Commission, political leaders, leaders of civil society organizations, 
representatives of the state and independent media, church leaders and 
other relevant officials. The assessment team's report is available on 
IRI's Web site at www.iri.org.
    After conducting several effective political party training and 
governance assistance programs in Angola in the 1990s, IRI's expertise 
was requested in assisting the political parties prepare for the 
upcoming elections. Their assistance to the political parties in 2002 
will include capacity-building workshops and a technical resource 
center.
    IRI is a nonprofit, nonpartisan organization dedicated to advancing 
democracy worldwide. IRI's programs span the globe and include a wide 
range of programs including, training on civic responsibility and the 
legislative process, strategies for building political parties and 
election campaigns, energizing women and youth to engage in the 
political process, communication training and election monitoring. IRI 
is funded through federal grants, as well as private contributions from 
individuals, corporations and foundations. For more information, please 
visit our Web site at www.iri.org.

    Senator Feingold. Thank you, Mr. Kramer. I found your 
testimony interesting and very useful as well, and I appreciate 
your help.
    Let me ask some questions, first, of Dr. Rostrup. Would you 
provide sort of an overview of international aid delivery in 
Angola? How effectively is the humanitarian aid pipeline 
actually functioning? And what are the most serious constraints 
on the delivery of humanitarian aid?
    Dr. Rostrup. I think it's--what we have seen during the 
last half year, after April the 4th, is that, to start with, 
there was really a clear insufficiency in the deliverance of 
aid. And that was, in our opinion, a kind of failure of the 
international community, but also the U.N. And we went public 
criticizing, among other things, the United Nations, the WFP, 
because it seemed that there was not the same way of judging 
the situation as an emergency, as we did after our assessments. 
So there were, obviously--in June, when I was there, there were 
very big shortages in the food pipeline. They said they had 
food perhaps three to four more months. They lacked funding to 
really reestablish storage of food for the rest of the year.
    Still, what we do see now is both, as I said, the lack of 
resources that the WFP, who is the major actor here in food 
distribution, still say they just have one-quarter of what they 
need to give food to the people well into 2003, which will be 
necessary for 1.9 million people, according to the estimates. 
And we know that monthly deliverance in some places, which 
should take place, is taking place on a 6-week basis, leaving 
periods without food.
    And we have in the field, as I also mentioned, seen how 
precarious a situation this may end up with, because with short 
food deliverances, then people very fast backslide into 
malnutrition.
    So I think it's pretty clear that we don't have enough 
resources. There is not enough food in place. There is not 
enough money in place to secure the population.
    In addition, we face the logistical constraints. And this 
is another problem. Even though we had enough food, to some 
extent, to bring it out to the people is another problem. And 
the de-mining efforts is an emergency in this situation, as 
well, to get food out to the people, and then to avoid huge 
population movements into areas where they may be very 
difficult to access.
    So I think overall it has scaled up quite a lot since June, 
July. There's been huge efforts from many aid organizations to 
assist the population. The situation has improved, overall, 
quite a lot. But we still feel that, in the future, if we don't 
do anything really to speed up the process and get enough 
resources, they can fall back into a very precarious situation.
    Senator Feingold. What portion of the Angolan budget is 
spent on health care?
    Dr. Rostrup. Well, the number I've heard is about 4 or 5 
percent, but this is some time ago. So, of course, as we have 
said it before, because we are working in the health care 
system for quite a long time in Angola, and we have raised this 
issue with the Angolan Government several times, that they need 
more investment in the health care system. And as we see it, as 
a medical/humanitarian organization, the fact that we are 
present in Angola is really a sign of failure of the 
government. We should never have been there. This is the 
government's responsibility, and we need to push for the 
government to take these responsibilities.
    Senator Feingold. What kind of cooperation does the Angolan 
Government typically provide to humanitarian agencies that are 
operating in the country?
    Dr. Rostrup. I think we have been able to operate pretty 
freely now in Angola. We have been managing our health care 
programs, hospitals, and so on. Still what is needed is more 
resources from the government side into the health care system, 
and we are pushing for that. But we can more or less do our job 
without any big obstacles for the time being.
    What we saw during the war was another situation in which 
we were denied access to areas, both from the government forces 
and from the UNITA forces, which was another situation which 
made the situation very, very bad for the civilian population.
    Senator Feingold. But that's not happening now.
    Dr. Rostrup. No. No, it's not happening.
    Senator Feingold. Does the so-called culture of corruption 
in Angola affect the humanitarian efforts? And if so, how?
    Dr. Rostrup. Well, it's nothing special I can comment on 
that, actually, because I don't know all the details. Of 
course, there is a bureaucracy, as in many countries, and we 
have to deal with that to import goods and so on. We have 
addressed some of this, but usually for MSF, as an independent 
organization, we do control all other--you know, the whole 
pipeline, from importing and to delivery of the goods. So we 
will--we have managed--as far as the reports I've got, we have 
managed pretty well to control this.
    Senator Feingold. Finally, I recall being told, I assume 
accurately, that there was good land for producing food in 
Angola, but, obviously, because of the mines and other 
problems, the idea of food self-sufficiency is very 
questionable. Long term, is food self-sufficiency a realistic 
goal for Angola? And what steps have to be taken to improve the 
food security situation, in terms of----
    Dr. Rostrup. I think, in the long term, de-mining of the 
fields is very, very essential. And in the current situation, I 
know that a lot of the civilian population, they want to go on 
cultivating the land if it's secure, if they get the seeds, 
tools to do that. I don't have, honestly, a total overview on 
what the food security or the possibilities will be for Angola 
in the future, but I would presume that they would be able to 
take care of themselves in the future, taking these measures.
    Senator Feingold. Thank you, doctor.
    Mr. Kramer, what can you tell me about the state secrecy 
law that was passed in June of this year? I understand there is 
a clause relating to so-called state income. What effect will 
this have on efforts to increase the transparency of the state 
revenues?
    Mr. Kramer. Well, in a word, chilling. Any legislation 
designed to hide, whether it be--well, primarily, I'd guess, 
financial data as a state secret is something that ought to be 
opposed.
    To the extent that--I mean, every country certainly does 
have state secrets, but--if you want to take the time to read 
through the volumes of our budget, you can. Unfortunately, in 
Angola, there isn't the accuracy in the budget.
    There's also a relatively recent law that continues to be 
debated but has been enacted that puts significant restrictions 
on the media, access to the media. Those types of laws, to the 
extent that they prohibit the ability of the average citizen--
be they from civil society activists, political party 
activists--to participate and engage in the system, are 
something we should strongly oppose.
    Senator Feingold. How is UNITA attempting to transform 
itself into a conventional political party? Are the leaders of 
UNITA able to freely organize? And do they have unhindered 
freedom of movement?
    Mr. Kramer. Let me say that, first of all, we don't even 
have to talk about UNITA, in particular, with respect to the 
issues of freedom of movement. I think any active political 
party that has a seat in parliament will tell you that ability 
to do anything outside of Luanda is severely restricted. The 
ability in Luanda, on some occasions, to display your party 
flag at the Angolan national football game--``football'' being 
soccer for the rest of us--but, you know, it's very, very 
difficult. There's not a great deal of tolerance and openness 
for different political thought.
    UNITA--the fundamental--from when I was there originally 
for the 2-years, to the times I've been back, to me the 
critical difference now is that UNITA's military leadership, 
which historically had stayed in the bush, is gone from the 
bush and has come to Luanda now. And they have transformed 
themselves, I believe, into a political party. The 
reunification that occurred, actually just within the last 
several days, the final components of reunification, suggest to 
me that they're making great strides.
    Now, UNITA has one major problem. And actually all 
political parties, other than the MPLA, have one major problem. 
It's a problem that I know, Senator, you've tried to deal with 
here, and that's access to financial resources to make them 
competitive. Given that the MPLA routinely utilizes the 
resources of the state, from the media to others, as part of 
the--there's not an independence between the party and 
governance--it makes it particularly difficult for any other 
political party to develop.
    One last note about UNITA. UNITA and MPLA are fundamentally 
different than any of the other political parties, for a very 
interesting reason. There is no unanimity of thought within 
those two political parties. Some of the smaller parties, there 
is not much dissension from what the President of the party 
says. Even today, as I traveled in, we were there in May, and I 
met with three different people in MPLA who, if dos Santos 
doesn't run for President, will run for President. Within 
UNITA, there are three or four people who I've had the 
opportunity to meet with who, if given the opportunity, will 
run for President. There is political debate going on within 
UNITA, as a party. There's political debate within MPLA going 
on, as a party. And that is a great, positive sign to me about 
the potential for those parties to engage in a broader debate 
on nationally important issues.
    Senator Feingold. How about the role that civil society 
plays in influencing the course of public policy in Angola? 
I've seen, in different places around the world, especially in 
African countries, what a very valuable role civil society can 
play. To what extent are Angolan citizens able to engage in 
civic organizing?
    Mr. Kramer. Well, the biggest difficulty that the Angolans 
face today is the fact that there is a registration process for 
civil society organizations that, when organizations have the 
potential vote to be perhaps significantly influential, they 
may not get the appropriate registration, or the registration 
process becomes delayed. It's something that we've heard about 
on a number of different occasions during both of our most 
recent trips to Luanda.
    As I said in my opening remarks, one of the most exciting 
things and exciting developments in the last two and a half 
years in Luanda, in particular, not so much outside of Luanda: 
there are two different worlds in Angola--but in Luanda, has 
been the emergency of civil society organizations. What's 
critical at this juncture is the ability to get them to talk to 
one another.
    Now, the activism of some MPLA--I won't call them 
``dissidents,'' but at least internal critics in a couple of 
the new civil society organizations is a positive development. 
It remains to be seen whether or not those are serious 
involvements and the politicos will pay attention to what civil 
society has to say.
    I have very strong feelings about one of the--from my 
personal opinion, one of the critical causes of this, and it's 
the system of governance that Angola has chosen, in terms of 
elections. The MPs are elected based on a party list, not to 
any defined constituency. There are 90 of them who are elected, 
5 per province. But many of those, and I understand that 
conditions didn't exist for extensive travel, but many of those 
members of parliament who are elected from a particular 
province haven't been back there since 1992. I know that NDI is 
doing a great job there of trying to take MPs out to do town 
hall-type meetings to create the concept of constituency and 
the responsibility to constituency.
    Today, the senior elected folks are responsible to the 
party and to the President, who's the one who ensures whether 
they get their checks, their cars, those kinds of things.
    One other positive development in that vein is the fact 
that Angolans, in the constitutional revision, and the MPLA, 
while they're against election of Governors, because they 
consider Governors to be an extension of state administration, 
the proposals--even the MPLA proposal for a new constitution 
contemplated having local elections, municipal and village 
councils, maybe mayors. As a political activist, that will grow 
the expectation--if it's your friend or your neighbor who's 
your councilman or your mayor--you know, Senator, people come 
to you when they need something, and if it's somebody you know, 
you tend to be more responsive. And something--that development 
is a positive one in Angola, which will make a difference.
    Senator Feingold. Finally, let me ask you--because I've 
raised issues in this regard when I've been to Angola, and I 
know many others have--how free is the Angolan press, itself?
    Mr. Kramer. One of my dear friends has been in jail a 
number of times because it's not that free. Things are 
improving. Radio Ecclesia is a great development. We hope that 
Radio Ecclesia will get a nationwide permit. They have an 
application pending. But open criticism of the government in 
the media is still not completely welcome. And it's, more than 
anything, it's just a historical bias about the way things--
it's not that the journalists intentionally do it a lot of 
times.
    I'll close with the example that there was a call-in radio 
show on national radio during one of the periods that we were 
there, and somebody called in to be critical of the government 
and without missing a beat, the DJ said, ``Oh, you must be a 
UNITA guy.'' And he said, ``No, I'm not a UNITA guy. I've been 
MPLA my entire life.'' But it's just something that's ingrained 
historically, and it's something that, with time, training, 
adequate resources, encouragement, demand from the people, will 
change.
    Senator Feingold. Thank you.
    I thank everyone who testified today. I think we all share 
a passion to see Angola succeed. But the context of these 
hearings has been--this being the last--what we've described as 
``failed states.'' And certainly that has been my observation 
with regard to Angola in the 10 years that I've been in the 
Senate.
    We very much, as a country, want to stay engaged in trying 
to help Angola come out of that status, not simply because of 
the obviously important economic relationship we have with the 
country, but because, as several of you have indicated, this is 
a country that has enormous potential to be a beautiful and 
wonderful place in the world. But it cannot be done without the 
reforms of the government and the recognition that the people 
of the country have to be taken care of first. Otherwise, I 
fear that the country will continue on the path that it has 
been on for far too long.
    But I thank you all, and I assure those who are here that 
this subcommittee will continue to work closely in terms of 
following the events in Angola and to continue to strengthen 
our role with regard to helping Angola succeed.
    That concludes the hearing.
    [Whereupon, at 11:30 a.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


             Additional Questions Submitted for the Record


 Responses of Hon. Walter H. Kansteiner, Assistant Secretary of State 
 for African Affairs, to Additional Questions for the Record Submitted 
               by the Senate Foreign Relations Committee

    Question. The Agency for International Development has indicated 
that the Office of Transition Initiatives will begin a program in 
Angola this fiscal year, but that the program would not include the re-
integration of UNITA ex-combatants because the government of Angola has 
made a commitment to do so. To date, what has the government of Angola 
done to support the re-integration of UNITA former soldiers? What has 
the government of Angola done to support the re-integration and/or 
family reunification of child soldiers and UNITA ``wives'' who were 
kidnapped into UNITA ranks? In what specific ways has the U.S. 
government supported these efforts?

    Answer. The Angolan Government has publicly committed to undertake 
the reintegration and resettlement of all former UNITA combatants and 
their family members. Reunification of both child soldiers and UNITA 
``wives,'' to the extent feasible, is to be included as part of these 
efforts. Under the April 4 Luena Agreement, all UNITA personnel and 
family members were instructed to report to one of 35 quartering and 
family member reception areas located throughout the country. Since 
that time 84,000 soldiers and approximately 300,000 family members have 
arrived at what are now termed ``gathering'' areas.
    Initial focus in the gathering areas was on the registration, 
disarmament, and decommissioning of UNITA combatants. This process was 
concluded on August 2. As a first step to reintegration 5,007 UNITA 
members were identified for integration into the Angolan Armed Forces 
and 40 for integration into the National Police. The integration 
process is proceeding with training and assignments for those selected.
    The first step towards resettlement and reintegration of the 
remaining demobilized combatants and their family members is to 
complete family registration in the gathering areas. The Angolan 
Government in cooperation with the UN Office for the Coordination of 
Humanitarian Affairs (OCHA) is finalizing this process.
    The Angolan Government has established the National Commission for 
the Reintegration and Resettlement of the Demobilized and Displaced 
under the chairmanship of the Interior Minister, which will have the 
lead in the resettlement/reintegration process. We are concerned that 
the National Commission has not been provided with adequate resources 
to carry out its responsibilities, including administration of the 
gathering areas for which it technically assumed responsibility in 
August. Since that time, the Commission has refused to coordinate 
adequately with humanitarian operators and the international community 
on relief efforts in the camps. Camp administration has largely been 
left to the Angolan Armed Forces, which have not been provided adequate 
resources to carry out this responsibility. The National Commission has 
been working with the World Bank to design a reintegration/resettlement 
strategy, but regrettably this process has not adequately sought the 
full input of relevant stakeholders, including UNITA and others in the 
international community. Launch of the World Bank resettlement/
reintegration program is expected in April, following the end of the 
rainy season. International humanitarian operators agree that this is 
the earliest launch date possible due to logistical challenges.
    The U.S. Government has been the largest international donor in the 
gathering areas. The USAID Office of Food for Peace has provided over 
$70 million to Angola in FY 02, a portion of which has been used to 
support food aid needs in the gathering areas. The USAID Office of 
Foreign Disaster Assistance (OFDA) has arranged three emergency 
airlifts and two sealifts of non-food items, including blankets, 
plastic sheeting, water containers, soap, kitchen sets, and health kits 
to the gathering areas valued at $4 million. OFDA has awarded a $3 
million grant to the UN Office for the Coordination of Humanitarian 
Affairs to support an emergency response fund to meet the needs of 
demobilized soldiers and family members.
    As part of our support for resettlement, reintegration, and 
reunification activities, OFDA has provided $3 million to the Food and 
Agriculture Organization for seeds and tools to support resettlement of 
demobilized soldiers and family members. OFDA is also working with NGO 
partners to expand coverage under existing programs to meet the 
humanitarian needs of former UNITA combatants and family members who 
have left the gathering areas and moved to urban areas. The USAID 
Office of Food for Peace, through its contribution to WFP supported 
resettlement activities estimated at $23 million in FY 02, and is 
working to develop a resettlement program with a consortium of private 
voluntary organizations for FY 03.
    Given the importance that the Administration attaches to well-
organized reintegration and resettlement activities for former UNITA 
combatants and their family members, our Embassy in Luanda continues to 
raise the issue as a critical part of discussions in the Lusaka 
Protocol's Joint Commission. We are concerned by recent Angolan 
Government statements that it intends to close the gathering areas by 
the end of 2002. We and other international donors believe that such a 
move is premature given that organized resettlement cannot 
realistically occur by that time. We are continuing to pressure that 
Angolan Government at all levels to rescind this decision and to fully 
cooperate in organizing a resettlement program over a realistic 
timeframe for former UNITA combatants and family members.

    Question. The World Food Program has indicated that its appeal for 
Angola has been funded at less than thirty percent. The United States 
has been its most generous donor, according to the WFP country 
representative in Luanda. What diplomatic efforts by the United States 
are underway to ensure that the rest of the donor community shoulders 
its share of the humanitarian response needed in Angola and in the rest 
of the southern African region?

    Answer. The United States through the USAID Office of Food for 
Peace and the Department of Agriculture have contributed approximately 
$100 million in food assIstance to Angola in FY 2002. This assistance 
is channeled through the World Food Program (WFP). Given the 
preeminence of the WFP role in providing food assistance to 1.9 million 
food insecure (mainly internally displaced) Angolans, we consider it a 
priority to ensure that WFP has the necessary resources to fully meet 
humanitarian needs.
    Key donor countries meet on a regular basis on Angola both in 
Luanda and in New York to coordinate humanitarian assistance. As a part 
of those on-going consultations, the United States consistently 
underscores the need to ensure that adequate resources are provided to 
major international operators, including WFP, to meet the humanitarian 
challenges in Angola. We have, thus far,been disappointed by the 
response of other international donors to the WFP appeal for Angola and 
continue to encourage our partners to share the burden of providing 
support both to Angola and to southern Africa as a whole.

    Question. Your written testimony indicates that military to 
military contact between the United States and Angola will need to 
``increase,'' and that an Expanded Military Education and Training 
Program would be beneficial. What will the specifics of such an E-IMET 
program be? When will the program begin? Have plans been developed for 
regular International Military Education and Training programs for 
Angola? What specifically will such a program entail and when will it 
begin?

    Answer. We anticipate initiating a small E-IMET program ($100,000) 
for Angola in FY 03 conditioned on continued progress by the government 
on the peace process and evenhanded treatment of former UNITA 
combatants. The initial program would consist of the establishment of 
an English language laboratory in Luanda and the training of English 
language instructors. Establishment of an adequate English language 
training capacity within the Angolan Armed Forces (FAA) is a useful 
step toward the goal of enabling FAA participation in regular IMET 
courses. Pending implementation of the initial E-IMET program, we have 
not begun planning for follow-on IMET activities.
    In addition to establishing an English language laboratory and 
training language qualified FAA personnel, we anticipate seeking FAA 
participation in other E-IMET courses. The emphasis within this program 
will be on courses dealing with military justice, defense resource 
management and civil-military relations, all areas in which additional 
training is needed. As was noted in our FY 03 Congressional Budget 
Justification, such a limited IMET program will advance initiatives to 
promote greater awareness in the Angolan military of democracy, human 
rights, the rule of law, and effective civil military relations and 
improve the Angolan military's ability to effectively interact with 
U.S. officials. Improved defense resource management will assist 
efforts to increase budget transparency and accountability across the 
Angolan Government and ensure that all expenditures are on-budget in 
conformity with IMF requirements.

                                   - 

</pre></body></html>
